HHS/OIG-Audit--"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cross and Blue Shield of Texas, Inc., (A-07-91-00472)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Contractor's Segmented Pension Cost, Blue Cross and Blue
Shield of Texas, Inc.," (A-07-91-00472)
January 31, 1992
Complete
Text of Report is available in PDF format (574 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of Blue Cross and Blue Shield
of Texas, Inc.'s (Texas) implementation of its Medicare contract clause on pension
plan segmentation. Texas identified four Medicare segments in 1981 using cost centers
instead of responsible organizational units specified in the contract. Texas' identification
methodology understated the actuarial liability fraction. When applied to the 1986
pension assets, Texas' fraction understated Medicare's pension assets as of 1986
by $552,870. We recommended that Medicare's segmented assets be increased by $552,870.
Medicare's pension assets were understated by another $880,874 in the updating
of Medicare's segmented assets from 1986 to 1990. The understatement occurred because
Texas incorrectly identified the Medicare segments and had not adjusted for participant
transfers in and out of the Medicare segments after 1986. We recommended that Texas
increase pension assets of the Medicare segments by an additional $880,874. Texas
generally agreed with our recommendations. The Health Care Financing Administration
also agreed with our findings and recommendations.